U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 17, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Francway v. Wilkie, No. 19-604
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 7,
2019. The government's response is now due, after one extension, on January 8, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 7, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0604
FRANC WAY, ERNEST L., JR.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS

MEL BOSTWICK
ORRICK,HERRTNGTON & SUTCLIFFE LLP
COLUMBIA CENTER
1152 15THSTREET,NW
WASHINGTON, DC 20005-1706
202-339-8483
MBOSTWICK@ORRICK.COM
ANGELA K. DRAKE
UNIVERSITY OF MISSOURI SCHOOL OF LAW
VETERANS CLINICS
225 HULSTON HALL
COLUMBIA, MO 65211
573-882-7630
DRAKEA@MISSOURI.EDU
MICHAEL E. JOFFRE
STERNE, KESSLER, GOLDSTEIN & FOX PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202-371-2600
MJOFFRE@STERNEKESSLER.COM

